CERTIFICATE OF SERVICE
I hereby certify that a copy of Petitioners’ Motion for Leave to Re-File
Petition for Rehearing was electronically filed with the Clerk of the Court for the
Supreme Court of the United States by using the CM/ECF system on April 21, 2021
to the following parties:
A. Bondurant Eley, Esq.
Civil Division
Department of Justice
P.O. Box 480, Ben Franklin Station
Washington, D.C. 20044
Email:
Bondurant.Eley@usdoj.gov

Jeffrey B. Wall, Esq.
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

/s/ Steven R. Schooley
Steven R. Schooley, Esq.
The Schooley Law Firm
108 Hillcrest Street
Orlando, FL 32801
Telephone: (407) 377-6300
Facsimile: (407) 377-6036
Attorney for Petitioners, Robert Kinghorn and the
Law Office of Frederick Huff, Interveners

